a=
I

snswnne  C1QCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B tiefs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-222
PAUL ANTHONY VALDERAS,
Petitioner,

Vv.
CITY OF LUBBOCK, TEXAS, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT BILLY
MITCHELL’S BRIEF IN OPPOSITION in the above entitled case complies with the typeface

requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5278 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

:
General Notary . lf, 4 J Chih,
State of Nebraska : ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

38672
